<html>
<title> - NOMINATION OF ANDREW MAYOCK</title>
<body><pre>[Senate Hearing 114-594]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-594

                      NOMINATION OF ANDREW MAYOCK

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

   NOMINATION OF ANDREW MAYOCK TO BE DEPUTY DIRECTOR FOR MANAGEMENT, 
                    OFFICE OF MANAGEMENT AND BUDGET

                               __________

                             JUNE 28, 2016

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                    U.S. GOVERNMENT PUBLISHING OFFICE
22-338 PDF                  WASHINGTON : 2017                         
__________________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>  
       
       
       
       
       
       
       COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
    Nathan R. Kaczmarek, Counsel, Subcommittee on Regulatory Affairs
                         and Federal Management
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
 Katherine C. Sybenga, Minority Chief Counsel for Governmental Affairs
         Brian F. Papp, Jr., Minority Professional Staff Member
        Ellen W. Harrington, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Carper...............................................     2
    Senator Ayotte...............................................     6
    Senator Peters...............................................     8
    Senator Ernst................................................    13
    Senator Heitkamp.............................................    18
Prepared statement:
    Senator Lankford.............................................    23
    Senator Carper...............................................    24

                               WITNESSES
                         Tuesday, June 28, 2016

Andrew Mayock to be Deputy Director for Management, Office of 
  Management and Budget
    Testimony....................................................     4
    Prepared statement...........................................    26
    Biographical and financial information.......................    28
    Letter from the Office of Government Ethics..................    45
    Responses to pre-hearing questions...........................    47

 
                      NOMINATION OF ANDREW MAYOCK

                         TUESDAY, JUNE 28, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:07 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, presiding.
    Present: Senators Lankford, Ayotte, Ernst, Carper, 
McCaskill, Tester, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good afternoon. Today we will consider 
the nomination of Mr. Andrew Mayock for the position of Deputy 
Director for Management at the Office of Management and Budget 
(OMB).
    OMB's role in evaluating agency policies and setting 
funding priorities is vital for good government. It is 
important to have qualified leaders at OMB to ensure that the 
Executive Branch agencies operate effectively.
    Andrew Mayock is a native of Rockford, Illinois. He 
received his undergraduate degree from the University of 
Illinois, a Master's of Public Administration from the Harvard 
Kennedy School of Government, and a law degree from George 
Washington University (GWU). Mr. Mayock has a distinguished 
career as a public servant, including serving as Special 
Assistant to the Chief of Staff at the Department of the 
Treasury; as Deputy Vice President, Millennium Challenge 
Corporation; and for the past 3 years, he has held several 
senior positions at OMB.
    Mr. Mayock has also served in the private sector as a 
senior associate for development and international diplomacy at 
Booz Allen Hamilton and as an international trade consultant at 
Harvard University's Center for Business and Government.
    In addition to this impressive resume, Mr. Mayock possesses 
the necessary experience and legal and policy background to 
serve at OMB.
    Committee staff reached out to a variety of Mr. Mayock's 
colleagues and affiliates who spoke highly of his judgment and 
abilities. Committee staff also had the opportunity to 
interview Mr. Mayock on an array of issues. He has thoughtfully 
and competently answered each question to our satisfaction.
    To date, the Committee has found you to be qualified for 
the position you have been nominated to, and I look forward to 
speaking with you more today about your experience and 
accomplishments and how you intend to apply them as the Deputy 
Director for Management.
    We have also had the opportunity to be able to sit in my 
office and be able to visit for a while and be able to talk 
through key issues in preparation for this conversation today. 
I look forward to finishing up that conversation and other 
questions. I also look forward to you publicly introducing your 
family, which I hope you will take advantage of the time when I 
recognize you in a moment to be able to do that in the moments 
ahead.
    I would recognize the Ranking Member, Senator Carper, if 
you would like to make an opening statement.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I would. Thank you, Mr. Chairman.
    It is great to see you, your wife, particularly to see your 
mom, your father-in-law, your kids, and other friends and 
extended family. I remember a number of years ago when someone 
brought in young children to, I think it was, their mom's 
confirmation hearing, and it was for a very demanding job. And 
I said sort of lightheartedly to the kids, ``Well, say good-bye 
to your mom because you will not see her again until 
Christmas.'' [Laughter.]
    At that point, I thought they were going to run out of the 
room and take their mom with them. It was not quite----
    Senator Lankford. And later they found out you were 
correct. [Laughter.]
    Senator Carper. It was not quite that bad, but it was 
interesting. So you will get to see your dad as much as you 
want to. And you will get to see your wife every night for 
dinner--well, maybe not. [Laughter.]
    But we are delighted you are all here. These jobs actually 
that we have and that you have, there is a lot of hard work, 
and I just want to say to your mom, thanks to you, and to your 
dad for raising you and imparting the kind of values that are 
clearly identifiable and recognizable today. To your wife, it 
is great to have you here and for your willingness to share 
your husband. And you have two really sweet kids, and it is 
great that they are here.
    I would never, as I said to them earlier before you 
arrived, I would never have brought in a 1-year-old and maybe a 
3-year-old to my confirmation hearing, and it is either an 
extraordinary demonstration of your calmness or maybe how well 
behaved your children are. I am not sure which it is.
    But, in any event, all of that notwithstanding, OMB has a 
mission that is near and dear to our hearts on this Committee. 
We are really interested in performance, and we are interested 
in a government that functions well and cost-effectively.
    As we all know, OMB plays a number of critical roles, 
including the formulating of our agency budgets and overseeing 
management issues that span literally the entire Federal 
Government. The office, and particularly the position that Mr. 
Mayock has been nominated to fill, plays an important role in 
helping agencies tackle serious challenges such as the upcoming 
Presidential transition, improper payments of over $100 billion 
per year, real property management issues, information 
technology (IT) management, and improving performance across 
government, to name just a few.
    I am pleased that the President has chosen to nominate you, 
Mr. Mayock. And in addition to many other important jobs in 
this administration, I understand that you recently served as 
the Associate Director for General Government Programs at OMB. 
This position has provided you with a background in Federal 
budgeting that gives you, I think, a different perspective than 
many of your predecessors. And I think it will serve you well 
as you lead, hopefully lead, the management side at OMB.
    Simply put, Mr. Mayock has the opportunity to help unite 
the budget and management side of the office, and I believe 
that could be especially valuable. His nomination also comes at 
a time when the Administration is in its final 7 months. It is 
not like they are turning the lights out and leaving tomorrow, 
but 7 months to go. Some may think that means it is not 
critical to take action to confirm him. I disagree with that 
sentiment, and obviously so do the others on this Committee.
    One of the greatest virtues of our Nation is the peaceful 
transition of power from one President to the next. I will 
never forget being in Central America at a Presidential summit 
hosted by the President of Costa Rica, Oscar Arias, who later 
won the Nobel Peace Prize. We had Presidents from all the 
Central American countries that were there. I think it was the 
President of Guatemala who said to me--this was probably the 
late 1980s. He said, ``In your country you take for granted 
that every 4 years you will have an election. Somebody will 
win, somebody will lose. And whoever wins becomes the President 
of your country.'' He said, ``That has never happened in my 
country.''
    So we take this for granted, and we should not, but there 
is a big challenge that lies ahead, and you are a big part of 
this with respect to this transition, and we appreciate your 
willingness to tackle that as well.
    One of the significant pieces of legislation that we have 
enacted here this year was something called the ``Edward `Ted' 
Kaufman and Michael Leavitt Presidential Transitions 
Improvements Act'' which became law earlier this year. That act 
incorporates many of the lessons learned from the Obama and 
Romney transition teams. And we look forward to learning more 
today about preparations for the upcoming transition and, more 
importantly, your role, if you are confirmed, with the Agency 
Transition Directors Council and the steps that are being taken 
at OMB to try to ensure a seamless transition of power.
    Again, we thank you for being here. We look forward to 
talking with you today and hopefully to working with you in the 
months to come. Thank you so much.
    Senator Lankford. It is the custom of the Committee to 
swear in all witnesses that appear before us. So if you do not 
mind, please stand and raise your right hand. Do you swear that 
the testimony you are about to give before this Committee will 
be the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Mr. Mayock. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect the witness answered in the affirmative.
    Mr. Mayock, once again I would encourage you to be able to 
introduce your family, but we would be very pleased to be able 
to receive your opening statement, and then we will followup 
with some questions here from the dais after that. Mr. Mayock.

 TESTIMONY OF ANDREW MAYOCK,\1\ NOMINEE TO BE DEPUTY DIRECTOR 
        FOR MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Mayock. Thank you, Senator Lankford. Thank you, Ranking 
Member Carper and Members of the Committee, Senator Booker.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mayock appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    I am truly honored to be considered by this Committee as 
President Obama's nominee for Deputy Director for Management of 
the Office of Management and Budget.
    I am grateful to have my family here with me this 
afternoon. I am deeply appreciative for their support and 
encouragement. And as for introductions, I have my wonderful 
86-year-old mother right behind me, Anne; my lovely wife, 
Cindy; my father-in-law, Steel. On his lap are our young son, 
Tai, who is about to turn 1 year old; and Mariella on the end.
    I am really delighted for them to be here, and thank you, 
Senator Carper, for your confidence in them. [Laughter.]
    And your confidence in me.
    I would initially like to recognize three of my seven 
siblings who are here today--Chris, Joe, and John--and their 
spouses and children have joined us.
    Senator Carper. Would they raise their hands, please? OK.
    Mr. Mayock. There is the Mayock section. [Laughter.]
    My parents instilled the value of public service in all of 
their children, and I am proud to represent my parents and my 
siblings today at this hearing.
    I want to thank President Obama for nominating me to this 
position. It remains an extraordinary honor to continue to 
serve this administration since I started in 2009. I would also 
like to thank OMB Director Shaun Donovan for his confidence in 
me. And I also appreciate the continued trust and support of 
all my colleagues at the extraordinary institution that is OMB, 
where I have served for the last 3 years.
    Furthermore, I appreciate the Members of this Committee and 
their staff for taking the time to meet with me prior to this 
hearing. If confirmed, I look forward to working closely 
together in the coming months and building on the important 
relationship that OMB has with this Committee.
    The Deputy Director for Management position helps lead the 
President's Management Agenda, a comprehensive and forward-
looking plan to modernize and improve government to ultimately 
deliver faster, better, and smarter services to citizens and 
businesses. The President's Management Agenda is built on four 
pillars: effectiveness, efficiency, economy, and people and 
culture. The administration is implementing these through a 
series of Cross-Agency Priority Goals, which were introduced by 
this administration to improve coordination across multiple 
agencies to drive performance and accountability.
    If confirmed, I plan to build on the progress made by this 
administration. I believe that the actions under the four 
pillars and the related Cross-Agency Priority Goals have led to 
measurable progress. For example, this administration has 
launched successful efforts to modernize and improve citizen-
facing services, reduce the Federal real property footprint, 
improve how we buy as a government, and eliminate wasteful 
spending.
    If confirmed, I would also seek to improve other 
initiatives in which the Deputy Director for Management is a 
front-line leader, including Federal cybersecurity, supporting 
digital services delivery to citizens, improving the 
infrastructure permitting processes, and enhancing the 
background investigations and security clearance process, to 
name a few.
    Furthermore, the Deputy Director for Management plays an 
important role, as Senator Carper noted, on the 
administration's commitment to a smooth Presidential 
transition. This includes implementing the statutory 
requirements of the Ted Kaufman and Michael Leavitt 
Presidential Transitions Improvements Act of 2015, as noted. 
Under this act, the Deputy Director for Management facilitates 
agency planning efforts, including co-chairing the Agency 
Transition Director's Council comprised of 19 of the 
government's largest agencies. If confirmed, I would focus on 
supporting a seamless transition.
    I believe my background in the public and private sectors 
helps prepare me for the role of Deputy Director for 
Management. This experience includes senior leadership roles, 
as noted--Associate Director of General Government Programs and 
Senior Adviser for Management--where I have worked with Cabinet 
agencies and others on a wide variety of budget, policy, and 
operational issues. My experience in senior leadership roles at 
the U.S. Department of the Treasury and the Millennium 
Challenge Corporation provide valuable agency operational 
experience and perspective regarding the governmentwide 
management challenges and opportunities that the Deputy 
Director for Management faces.
    Additionally, in my private sector work at Booz Allen 
Hamilton, I gained experience in generating performance 
improvements through process streamlining, improving deployment 
of technology, and strengthening organizational effectiveness. 
This combined experience offers a strong foundation for 
delivering on the President's Management Agenda and the 
requirements of this office.
    Mr. Chairman and Members of the Committee, I would be 
pleased to answer any questions you have.
    Senator Lankford. Thank you, Mr. Mayock.
    We have three quick mandatory questions, and then Senator 
Carper and I are going to defer our questions to the end 
because we each have 25 minutes of questions for you, and so we 
are going to go ahead and do that at the end. [Laughter.]
    But there are three quick mandatory questions, and then I 
will recognize Senator Ayotte for her questions.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Mr. Mayock. No.
    Senator Lankford. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Mayock. No.
    Senator Lankford. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Mayock. Yes, I do.
    Senator Lankford. Thank you. I would recognize Senator 
Ayotte for her questions.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. I want to thank you, 
Mr. Mayock, for being here and for your willingness to serve in 
this position, and your family as well.
    I wanted to ask, OMB has taken significant steps to better 
manage IT investments, and that has been an issue that this 
Committee has been very interested in. This is really important 
since the Federal Government is projected to spend more than 
$80 billion this year on IT, and we passed out of this 
Committee and into law a bill called the ``Federal Data Center 
Consolidation Act.'' And that bill focuses on the agency's 
requirements for data center consolidations and optimization 
plans to do that. And we believe--I think this is a very 
bipartisan bill--that there is a lot of cost savings we could 
achieve with that, and better performance measures.
    So OMB has stated that it is working to close thousands of 
Federal data centers that could be consolidated, and I 
certainly applaud those efforts. But I also want to point out 
that the Government Accountability Office (GAO) has recently 
cautioned that OMB must remain dedicated to actively overseeing 
the Federal agencies' data center consolidations and that there 
are more savings that can be realized. And some agencies, like 
the Department of Defense (DOD), are really aggressively going 
at this in terms of consolidation and others that have reported 
little or no progress, so there seems to be a gap in agency-
wide.
    So what actions will you take to realize the billions of 
dollars in savings in this area and to make sure that we 
appropriately consolidate data centers and also make sure that 
savings is important, but we also want to make sure that we are 
having this happen across agencies versus some agencies really 
going quickly, some really not embracing this concept?
    Mr. Mayock. Thank you, Senator. I appreciate the 
opportunity to respond to that question and highlight the 
efforts that OMB is undertaking to date and am committed, if 
confirmed, to working with you and members of the Committee on 
staying on top of this issue and making further progress on 
this issue.
    Broadly writ, I would say a few things regarding the data 
center consolidation. One is, as I referred to the President's 
Management Agenda in my opening statement, this is our No. 1 
priority in the President's Management Agenda: delivering 
smarter IT. One of the tools that we received from Congress to 
help deliver on that promise, that agenda item, is the funding 
that we receive through the Information Technology Oversight 
and Reform (ITOR) piece of the budget, and that has allowed the 
office of the Federal Chief Information Officer (CIO) to bring 
on staff that oversees--who are deeply knowledgeable in IT and 
who work with the budget staff in OMB to closely oversee 
agencies' budgets and agencies' IT operations. That, in 
addition to the tool that this Congress has provided OMB 
through the passing of the Federal Information Technology 
Acquisition Reform Act (FITARA) has created a powerful 
framework for OMB to make progress on that and to deliver on 
that.
    To date, we have delivered $3.8 billion in savings through 
that work. About half of that savings is through the data 
center consolidation. I think you quite accurately assessed 
that we have more work to do, that there are agencies 
throughout the Federal Government. I think that we are in a 
position now 2 or 3 years into ITOR funding and building the 
resources with OMB and working with the budget side of OMB to 
do a better job of overseeing those agency partners and working 
with those agency partners to deliver on those savings.
    The last thing I would note, Senator, is the role that our 
partner and colleagues at the GAO play, as you noted. We work 
closely with them. This is on the high-risk list, as you know, 
and we appreciate their views, and their suggestions and their 
partnership also helps us in being able to work with agencies 
to deliver more and better on this agenda item.
    Senator Ayotte. Thank you, and I am glad to hear you say 
that this is going to be an important priority for you, because 
I do think there are a lot more cost savings we can realize. 
This has been a strong bipartisan effort, and this is an area 
where we certainly can do more across agencies. So I appreciate 
that.
    Since we are talking about GAO, in March GAO published a 
report titled, ``OMB Improved Implementation of Cross-Agency 
Priority Goals, but Could Be More Transparent About Measuring 
Progress.'' And as you know, a lot of the best opportunities to 
protect taxpayer dollars requires coordination where you have 
multiple Federal agencies involved. And recognizing this, in 
2010 Congress required OMB to coordinate with agencies to 
develop outcome-oriented Federal Government priority goals. 
However, the latest GAO report states that agencies are not 
sufficiently setting targets or reporting on efforts to develop 
performance measures. And also thinking about when we invest in 
taxpayer dollars, we want to make decisions on where to 
prioritize based on performance measures so that we are really 
putting our resources in the best-performing programs.
    So if these goals are priorities, then it seems essential 
that we have information to show progress and achievement, and 
given the important role of OMB of coordinating in this 
endeavor, will you make sure that these GAO recommendations are 
acted upon? Because I think this is another area where we could 
improve our performance overall with Federal agencies to the 
American people and that the better coordination and the better 
we are measuring progress and performance measures, we can know 
whether we are effectively spending taxpayer dollars.
    Mr. Mayock. Thank you again, Senator, and I think that 
reflects another tool that we received via this Committee that 
we worked closely with through the Government Performance and 
Results Act (GPRA) Modernization in 2010 and our ability to go 
create the framework that led to the Cross-Agency Priority 
Goals that led to the Agency Priority Goals that the 
President's Management Agenda and the President's Management 
Council seeks to then go execute on.
    As to the GAO report in particular, we were quite pleased 
on one hand for GAO to say to us, hey, you are doing a good 
job, in part. We acknowledge GAO's assessment that there is 
more to do, there is a lot more to do in GPRA Modernization.
    Senator Ayotte. This is one of those no good deed goes 
unpunished. [Laughter.]
    Mr. Mayock. It absolutely is. A very fair assessment. So I 
think we have more work to do. I think there is a lot of work 
that we can do and, if confirmed, I can do, in the remaining 
months to really lay a stronger foundation for the next 
administration. I think we have made progress by posting them 
on Performance.gov and making quarterly reports show up so that 
people can track the Cross-Agency Priority Goals, people can 
track the Agency Priority Goals. Can they improve as goals 
themselves and can we improve the presentation so it is an 
easier piece to follow for our stakeholders, for the American 
people? Absolutely. And those are the kind of things that we 
are working on, and if confirmed, that is the kind of agenda 
that I will be working on and would be pressing very hard on.
    Senator Ayotte. Thank you.
    Mr. Mayock. Thank you.
    Senator Lankford. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, Mr. Mayock, 
congratulations on your nomination. It's good to have an 
opportunity to ask you a couple questions and get to know you 
better before the actual vote for your appointment.
    Last week, I introduced, along with my colleagues Senators 
Gardner, Thune, and Nelson, the American Innovation and 
Competitiveness Act, which is legislation that follows on the 
America Creating Opportunities to Meaningfully Promote 
Excellence in Technology, Education, and Science (COMPETES) 
Act, and which basically authorizes programs for the National 
Science Foundation, the National Institute of Standards and 
Technology (NIST), and activities for the Office of Science and 
Technology Policy, including Federal science development and 
Science, Technology, Engineering, and Math (STEM) programs. I 
am pleased to say that tomorrow we are actually going to be 
doing a markup on that legislation in the Commerce Committee as 
well and are expecting it to pass and then go to the Senate 
floor.
    In putting this legislation together, I worked very closely 
with Senator Gardner, and we held a series of roundtables over 
the last few months, engaging the stakeholder community and 
scientists and educators, folks throughout the technology 
enterprise here in the country, and folks who work with Federal 
grants in particular. And we heard in those roundtables that 
some of the broad restrictions on Federal employee travel that 
were put in place by OMB after the 2012 General Services 
Administration (GSA) conference has had a disproportionate 
impact on Federal researchers who rely on attending these 
conferences to stay engaged with and to disseminate their 
Federal research findings to the broader scientific and 
technical community. And as I know you will appreciate, science 
and technology works better when the findings are broadly 
shared and a number of researchers can have an opportunity to 
understand what others are doing so that they can follow on 
with that work as well.
    So as a result of that, we included a provision in the act 
which will direct the OMB to consult with the Office of Science 
and Technology Policy and heads of other Federal research 
agencies, science agencies, to revise these policies for 
approving Federal researcher attendance of scientific and 
technical conferences.
    So I understand some of that work is already being 
undertaken at OMB, but I want to kind of get your thoughts on 
that. And if confirmed, will you commit to seeing this rule 
revision through so that we can ensure that the Federal 
Government continues to encourage the broad dissemination of 
Federal research findings and the engagement of Federal 
researchers with the scientific and technological community?
    Mr. Mayock. Thank you, Senator, and let me note first off 
that the administration believes in the importance of keeping 
our competitive edge. The administration makes a major priority 
of technology and science, as you know, and we definitely want 
to support the community as much as we can to further their 
work.
    At OMB, as you know, we put the controls in place in order 
to make sure that we had appropriate measures to make sure 
there is not wasteful spending in that area. It is time on 
occasion to review those controls to see how those are working 
and how they are affecting various communities.
    As you noted, we are in touch with Dr. John Holdren's 
office, and we have been working with Dr. Holdren's office to 
understand and get data as to the impacts. And we are committed 
to continuing that work, and if confirmed, I am certainly 
committed to working with Dr. Holdren and finding the right 
balance between our research community and our budget controls.
    Senator Peters. Great. And I understand there is a balance 
there, but I appreciate your willingness to work on that. It is 
certainly something very important and something we heard very 
loud and clear in those roundtables that we held with 
researchers.
    We also heard during the working group series that 
researchers often spend as much as 40 percent of their time 
fulfilling administrative requirements associated with applying 
for and maintaining Federal research grants. So in the 
legislation that will be before the Committee tomorrow, we have 
made it a priority to reduce this burden as much as possible. 
We have included a provision that establishes an OMB-led 
interagency working group that will, among other things, 
explore uniform grant proposals, uniform financial disclosures, 
an investigator repository, and review regulations on research 
progress reports.
    So, if confirmed, will you commit to prioritizing this work 
to reduce administrative burdens on Federal researchers so that 
we can maximize our Federal investment in the actual research 
work and not on an awful lot of paperwork that gets in the way 
of researchers' day-to-day activities? I need, first off, your 
commitment to prioritize, and then kind of your general 
thoughts on how we can move this forward to make sure this is a 
streamlined process that puts money into research and not into 
paperwork.
    Mr. Mayock. Thank you again, Senator. It is certainly a 
priority of the administration to make progress on grants and 
grant reform, and it has been something that we have worked on 
quite a bit over the past 7 years. In 2014, we put together 
guidance that tried to reduce that burden. That cut paperwork 
down by, as I understand it, 75 percent and tried to put 
grants.gov into place, so grants had a one-stop shop for people 
to come to and see what was available and see if they could 
apply. That work I think is something that we are very proud 
of, but that work continues. We certainly have more to do in 
that space, and that remains a high priority.
    So I can commit to you today that, A, if confirmed, it will 
remain on the priority list for us; and, B, if confirmed, we 
will seek to make progress in the coming months ahead.
    Senator Peters. Great. I appreciate it. Thank you for your 
answers.
    Senator Lankford. Ranking Member Carper
    Senator Carper. Thanks. Mr. Mayock, you cannot see this. I 
just said to the Chairman, I said I am watching the faces of 
your family sitting there, and your wife never has a smile far 
from her face. She has just the warmest countenance, and so---- 
[Laughter.]
    And I do not think she is laughing at what you are saying, 
but she is just giving you great encouragement there.
    From time to time, when we have someone nominated for a 
position such as yours, I reflect on the responsibilities of 
the Executive Branch and the Legislative Branch to try to make 
sure we spend taxpayer money appropriately and thoughtfully. I 
will never forget one of my early town hall meetings when I was 
a Congressman. A woman was there, and basically at our town 
hall meetings, people could raise whatever issue they wanted 
to. This one woman raised her hand, and we were talking about 
budget and fiscal issues, and she said, ``I do not mind paying 
taxes. I just do not want you to waste my money.'' That is what 
she said: ``I do not mind paying taxes. I just do not want you 
to waste my money.''
    And I said, ``Well, I do not either,'' and I went on to 
explain some of the things that I was doing, that we were 
trying to do to make sure we spent her money and other people's 
money in a cost-effective way.
    We have a role to play on this Committee, an oversight 
role, as you know. It is fairly broad over much of the Federal 
Government. We work very closely with GAO. We work closely with 
the Inspectors General (IG). We work closely with OMB. And we 
still have a fair amount of waste, ineffective spending, 
inefficient spending, and a deficit which is down from about 
$1.4 trillion 6 or 7 years ago to about a third or a quarter of 
that today, so that is improvement. But we still have a long 
ways to go.
    Why do you think, despite all of our efforts at oversight, 
the work that OMB does, the Inspectors General, GAO, now we are 
stuck at a deficit of about--it has pretty much leveled off. It 
is not coming down now. Why do you suppose we have not done 
even better than we have achieved so far in deficit reduction?
    Mr. Mayock. Well, I think particularly in the area of 
government waste, Senator, I would recognize and commend again 
this Committee's partnership with OMB and others on the 
legislative work that you have put in place on improper 
payments through Improper Payments Elimination and Recovery Act 
(IPERA) and through Improper Payments Elimination and Recovery 
Improvement Act (IPERIA) and the codification of the 
President's initiative on Do Not Pay. So it would be my 
assessment that we have made a lot of progress at the kind of 
challenge that this is, which is quite----
    Senator Carper. Let me just interrupt you for a moment. My 
wife asks me from time to time what I want on my tombstone, and 
I have worked a lot on postal reform over the years with his 
predecessor, Tom Coburn. I told her jokingly one day after 
church when we were at a stoplight back in Delaware, and there 
was like a cemetery alongside us, and she started saying, 
``Well, what do you want on your tombstone?'' I said, ``I feel 
fine. I am going to be around for a long time. I exercise and 
work out and take good care of myself.'' She kept saying, 
``Well, what do you want on your tombstone?'' Finally, I said, 
``Well, how about `Return to Sender'? '' [Laughter.]
    And she thought about that. She did not think it was funny. 
I thought it was pretty clever.
    But the other thing they might put on my tombstone is, ``He 
was really against improper payments.'' [Laughter.]
    And I really am. We have worked this very hard, Dr. Coburn 
and I and others, and improper payments, after coming down for 
a couple of years, now have started going back up. They are 
like over $100 billion, about $120 billion, after going down. 
That is a lot of money.
    I am not ready to give up, but I would never give up. But 
why do you suppose that is happening?
    Mr. Mayock. In addition to putting the tools in place that 
we have put in through IPERA and IPERIA, we have gotten the 
ability to go after the root causes of the current issues. But 
one of the things that we have not done, Senator, which I hope 
that we could do--and it exists in the President's budget of 
fiscal year (FY) 2017--is there are some administrative 
resources through program integrity initiatives that could, I 
think, have a quite dramatic effect on this.
    So part of the problem is not investing in the 
administrative resources that would help us get on top of these 
issues. And I think until we do that, we are going to face 
significant challenges. And when we do that, I think we have an 
opportunity not only to spend that money wisely, but per 
program integrity initiatives generally also have returns on 
that money.
    That is my hope for the direction that we could take it in. 
That is, I think, one of the issues that is keeping us from 
making progress and perhaps one of the issues that is causing 
that trend to go in the wrong direction.
    We were also quite heartened, as partners with you in this, 
as that rate came down, and came down somewhat dramatically, 
but there is still a large base. And it is ticking up, and its 
latest trend is certainly something that we are not satisfied 
with and something that, if confirmed, it will also be a very 
top priority, as we have made it throughout the Obama 
Administration's two terms.
    Senator Carper. So maybe 80 years from now when your 
tombstone is erected, it might also say, ``He was also against 
improper payments.''
    Mr. Mayock. I might add that I am with you there on postal 
as well, as you know from my budget days.
    Senator Carper. Yes.
    Mr. Mayock. So I joined in that fight as well.
    Senator Carper. Good.
    Mr. Mayock. I have a lot of hope for us, Senator.
    Senator Carper. Let me change the focus a little bit. We 
talked earlier about the Presidential transition. We just had a 
wonderful signing ceremony of the legislation that bears the 
name of former Senator Ted Kaufman and former Utah Governor 
Mike Leavitt, two of my favorite people, to further improve the 
process that we go through on the Presidential transition, to 
try to provide for a smoother transition.
    Given the complexity of the transition--and you will play a 
very significant role, as you know--what are some of the 
biggest challenges you think you will be facing? And how can 
you draw on maybe the lessons learned from previous 
Presidential transitions to better ensure a seamless 
transition?
    Mr. Mayock. Thank you, Senator. I would like to thank again 
the Committee for their leadership and again passing us and the 
Executive Branch another powerful and important tool.
    Senator Carper. Well, you all helped us shape the bill, so 
we thank you as well.
    Mr. Mayock. And we thank you for your partnership in 
shaping the bill. As I mentioned earlier----
    Senator Carper. If you do a really good job on this, we 
might name the next bill after you. [Laughter.]
    Mr. Mayock. Well, I had the opportunity to work with 
Senator Kaufman and Governor Leavitt as part of this.
    Senator Carper. Are they two great guys or what?
    Mr. Mayock. They are two great guys.
    Senator Carper. Love them both.
    Mr. Mayock. And they are so dedicated to this issue. They 
are so deep on this issue, and the amount of time that they 
have invested, and making sure that we are improving this cycle 
significantly upon the last cycle is a great testament to their 
patriotism. And I think as you mentioned earlier, the solemn 
task that this is, as you saw in Costa Rica, the fact that we 
are able to do this and do it smoothly and without issue from 
one party to the next is just an extraordinary feat of American 
democracy, and it is an extraordinary role to potentially have, 
if confirmed in this position, to be one of the main stewards 
of this law and for this activity.
    I would say as far as risks of the Presidential 
transition--and it is an important tool, again, that this law 
has provided to the administration, is to give the actors in 
the arena space to deal with transition versus it being hidden 
behind some curtain. There is an enormously small amount of 
time between the election and the inauguration, and much work 
needs to get done within that time and before that time. So 
creating the ability to talk about it, to engage in it, is and 
was a big risk and is, I think, in the activity that I have 
seen this year, in this election cycle, a risk that has been 
mitigated quite a bit because people are very much engaged and 
people are engaged in very open environments.
    So that is really helpful, and that goes to the second 
risk. As I have had an opportunity to work with my colleagues 
at OMB and throughout the Federal Government, there is a lot of 
institutional knowledge as far as memory, but not a lot of 
institutional knowledge in documentation as to how a transition 
runs and runs smoothly. So we are doing a bit of reinventing 
the wheel that should be entirely unnecessary in this process. 
That is a risk; I think that is a challenge. I think it is one 
that we will overcome.
    Senator Carper. I am going to ask you just to hold it right 
there. I am over my time, but we will come back for another 
round. And thank you very much for being so generous. Thank 
you. Thanks for those responses.
    Senator Lankford. I recognize Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. Thank you, Mr. 
Mayock, for being here. We appreciate it very much.
    Last year, the Senate passed the Program Management 
Improvement and Accountability Act, and recently, the bill 
passed out of the House Oversight and Government Reform (OGR) 
Committee. We worked with OMB in developing this legislation. 
So as you are aware, the bill gives you increased 
responsibility to develop a standards-based mode for program 
management that is consistent throughout the whole of 
government. And you would also be responsible for leading and 
establishing an interagency council on program management.
    Should this bill become law, will you commit to doing 
everything within your authority to implement this legislation 
so we can finally address the budget overruns, the schedule 
slips, and the workforce challenges that have led to huge 
amounts of wasted taxpayer dollars?
    Mr. Mayock. Thank you, Senator Ernst, and thank you for 
pointing out a challenging issue that we have been working with 
at OMB, particularly through the tool that Congress gave us 
through GPRA Modernization in 2010 and setting up the framework 
that is Agency Priority Goals and Cross-Agency Priority Goals 
to do a better job to bring modern management tools to the 
Federal Government.
    So I am certainly committed, as I am committed to any 
statutory requirement and tool that is given to us by Congress, 
to execute it and implement it to the fullest.
    Senator Ernst. Thank you, and we appreciate the agency 
working with us to develop this language. So thank you for 
that.
    Recent studies have shown that when there is a change in 
party entering the White House, midnight regulations occur. For 
those that do not understand what ``midnight regulations'' are, 
it is that time between election day and Inauguration Day, and 
those midnight regulations during that time, they nearly 
double. So a big concern there.
    There are articles that suggest there are up to 48 
potential midnight regulations out there before President 
Obama's term winds down. What are you going to do to make sure 
these last-minute rules are getting the review and the 
consideration that is necessary for them from the Office of 
Information and Regulatory Affairs (OIRA) so we are not placing 
increased burdens on Americans?
    Mr. Mayock. Thank you, Senator. I appreciate the question 
and appreciate the concern. As we were just discussing, a 
smooth, seamless, competent Presidential transition is of the 
utmost importance and priority for the President. He was very 
grateful for the work that occurred by President George W. 
Bush, and he has on numerous occasions thanked publicly the 
work by the Bush Administration to do that.
    There are a number of pieces, as you are pointing out, to 
transition and the passage of one administration to the next. 
The regulatory arena is certainly one of them. That is headed 
up by my colleague Howard Shelanski.
    What I am aware of as to our approach during this time is 
that Mr. Shelanski shared a memo with the Cabinet agencies--I 
want to say that was in December 2015--to communicate to them 
that the calendar year 2016 was a business-as-usual year, that 
we would not be in the business of the situation that you are 
pointing out.
    So I think we as an administration have communicated that 
to agencies. I think Howard Shelanski and his office have stood 
behind that, and I look forward to continuing to work with them 
as colleagues in OMB as we continue to push forward through the 
transition.
    Senator Ernst. OK. Certainly, I appreciate any careful 
review and consideration of any rules that might come forward, 
so I appreciate your time here. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you.
    Let me run through a couple things, and I will just kind of 
evaluate your answers. Now that I know that your brothers are 
also here, I would like to know--maybe the bullpen might be 
better to be able to call in for some of these things. 
[Laughter.]
    So we will kind of evaluate that back and forth.
    It is no secret, I spent a long time getting a chance to 
visit with some of the Federal managers to talk about some of 
their views on agencies and leadership, hiring issues, things 
that you are very aware of. In April, I had a long meeting with 
them just to be able to talk through multiple issues and to be 
able to really--I did not talk. I listened. And I wanted to be 
able to just hear what some of their prime concerns are.
    What I would like to do is just read off some of the things 
that were talked about during that time period. None of these, 
I think, will be a surprise to you, and I would be glad to be 
able to provide you a list so you do not have to take copious 
notes on all this as well. But let me just read through, and I 
would like to just get any input or any one of them that may 
stick out to you and say that is something that we have to take 
on and take on soon.
    As I talked with some of those leadership folks, here are 
the main things that I heard from them: issues about 
administrative leave. The vast majority wanted to shorten the 
acceptable length and clarify the specific categories for 
employees placed on administrative leave. They emphasized 
training managers to make good decisions and a system that 
protects managers from wrongful retaliation, which was a very 
serious issue for them.
    Veterans' preference. Now, I have to tell you, they were 
very clear. They were all eager to be able to help protect 
veterans' preference. But there were some inefficiencies that 
they highlighted in the programs based on that. They complained 
that after a long search, they may end up with a veteran 
candidate for positions that are not specifically matched to 
that skill set, and it is frustrating for that veteran and for 
them. They also expressed frustration with the length of time 
consuming paperwork and the process required when attempting to 
select a better-qualified candidate for the position.
    On hiring, managers, they said, lacked the ability to 
effectively recruit, and the direct hiring authority needed to 
compete for the jobs that they know employees are best suited 
for into the open positions. There was a tremendous amount of 
disdain for USAJOBS, which Senator Heitkamp and I have held an 
open roundtable on that specific subject.
    Concerning bonuses, the Federal Government should reward 
only those that do exceptional work, and there is an 
acknowledgment that the surveys reflecting 99 percent of 
Federal employees are doing fully successful or better work 
just was not credible.
    On manager training, increased managerial training for 
actions, options, and strategies to use in relating to 
employees with unacceptable performance and improvement and in 
conducting employee performance appraisals. Managers also want 
more pronounced agency leadership and focus upon compliance 
with existing laws and regulations.
    And, finally, there was a conversation, which you would not 
be surprised on either, about some agencies are interested in 
dual-track advancement which provides both technically skilled 
employees and those seeking supervisory roles opportunities to 
be able to move up. All managers seemed supportive of this 
workforce innovation.
    Any one of those in particular jump out to you that you 
want to be able to talk about? And, again, I can provide you 
this list that was part of our conversation.
    Mr. Mayock. Well, thank you, Senator, and I would 
appreciate the list going forward as we continue to work 
together to seek to make progress on that.
    I would say as to the list itself, most, if not all of 
those, ring quite true as to common issues that arise when 
connecting with managers. And I would also thank you. I have 
heard about your visits with managers at The Partnership for 
Public Service and otherwise, and I can say they find that to 
be an unusual opportunity and a real opportunity to have a 
candid conversation with you. So I think that is an important 
thing that you are doing by reaching out and reaching out at 
that level to engage them.
    As to what we do about it, I would say a couple things on 
that point.
    No. 1, if confirmed in this position, I have a good and 
great partner in Beth Cobert as the Acting Director at the 
Office of Personnel Management (OPM). She was a great partner 
when I was in my budget role at OMB, and we worked on a number 
of projects together. And we have the opportunity through the 
construct of these two roles to continue that partnership. And 
I have had an opportunity as a Senior Adviser to the Director 
to in part continue that.
    I would note a couple initiatives for which Beth is leading 
the charge on and for which OMB is playing a strong supporting 
role, and they capture a number of the issues that are laid out 
on your list, Senator. Her Hiring Excellence Campaign that OPM 
has been leading--and it started in earnest I want to say in 
January--is doing the hard work of working through a lot of the 
issues that you noted and truly, A, myth-busting--there are a 
lot of myths out there about how the Federal Government works 
in the hiring space; and B, bringing together hiring managers 
and human resource (HR) managers, which is a relationship that 
could use a lot of work.
    I can tell you from my time at the Treasury Department and 
the Millennium Challenge Corporation, it is another place 
where, if confirmed for this position, I have a lot of agency 
experience that informs me about what is real and what is not 
real and what can be achieved and not achieved in the agency 
context.
    So I think through this Hiring Excellence Campaign, we are 
working through a number of these issues. The paperwork, the 
bonuses, the compliance aspect, the rotation opportunities are 
all a piece of that. I think it is an excellent campaign. I 
think it is a comprehensive campaign. It is something that we 
would like to, as we think about the last 6 months of the 
administration, perhaps put special emphasis on and really 
double down on.
    Senator Lankford. Well, I would say a lot of the 
conversation both about management and about local 
decisionmaking, and all those things that we have discussed 
multiple times in other hearings here, all ring true no matter 
who I talk to in whichever agency. So while I understand there 
are some myths and some issues there, and there is a lot more 
flexibility than there appears to be used in much of the hiring 
area, but there is a very long delay. Whether that is an 
administrative role or whether that is a forklift operator at 
one of our Federal facilities, it seems to be around 4 months 
to be able to do a hiring. And that is a very long time to be 
able to work through the process, second only to once they 
retire out of Federal service and then work to actually get all 
their Federal pensions and benefits, at times we can have 4 or 
5 months of waiting for the paperwork to be complete to get 
through the full OPM process as well in the end.
    So both in the hiring and on the retiring side, we have a 
very long delay, and those are issues in the days I hope we can 
work through for the sake of those that are quality to serve in 
the Federal Government and have served our Nation very well.
    Let me switch gears a little bit on what several folks have 
mentioned as well about OIRA. When there are disagreements 
between OIRA and the Deputy Director for Management about 
management policies for any general government effectiveness, 
how do we process that? Who gets the final word? Where do you 
think that goes?
    Mr. Mayock. Well, I think, Senator, if there were 
disagreements between the head of OIRA and myself, if confirmed 
in this position--I find there have been few to none. I have 
had the opportunity to work with Howard and his team quite 
closely over the last----
    Senator Lankford. A very good leader in that area.
    Mr. Mayock. A very good leader. And we do not always agree 
on everything, but we have found a way to find consensus and 
move forward as things have proceeded. But the natural place, 
of course, inside the construct of OMB would be to go to the 
OMB Director when any part of OMB is in conflict, whether it is 
with Howard or the Senior Adviser for Budget or the Senior 
Adviser for Management, that would be the natural venue to have 
an exchange.
    Senator Lankford. OK. One last question, and then I want to 
recognize Senator Heitkamp, and that is about the high-risk 
issues that have been this wonderful long list that has been 
out there for a while. Some of those issues have been resolved 
during this administration. Some were inherited from two 
administrations ago and are still in process.
    How do we sustain this? And, really, this is a transition 
question, because most of those issues that are on GAO's high-
risk list are not going to get wrapped up in the next 7 months. 
It is a part of the Presidential transition to say this needs 
to be done and we are setting up the next administration to be 
able to finish that. How do you include that in your 
Presidential transition conversations, the high-risk list?
    Mr. Mayock. Thank you, Senator. And I would note we at OMB 
see this as an extremely important role and partnership that we 
have with the Comptroller General in bringing the issues at 
high risk into OMB on a monthly basis, regardless of whether it 
is a direct OMB equity or a broader OMB equity. So we work very 
closely and in close partnership with Comptroller General Gene 
Dodaro on that. And I think part of the answer to your question 
is to maintain that pace and maintain that continuity. So it 
would be certainly my pledge, if confirmed, to play that role, 
to play that role every month right into January, and to hand 
that off to my successor, if confirmed, so that could pick 
right back up in February, No. 1.
    Senator Lankford. Would you anticipate there is a short 
list of undone that in the hand-off is not only trying to 
complete what needs to be done each month but also a package in 
that transition to the next agency head to say here is where we 
are and here are some ideas of what needs to be finished?
    Mr. Mayock. Absolutely. I think where there is agency-
specific issues on the high-risk list, whether it is weather 
satellites at Commerce or mental health at Veterans Affairs 
(VA), that should be high, high, high in the transition 
document so if you are an agency landing team and you are 
coming in on November 9 or November 10, you are finding out 
what are the highest-priority issues. GAO high-risk list, if 
you are on it, you ought to know about it as you cross that 
doorstep. The same thing on January 20. That senior leadership 
needs to have visibility on that. That senior leadership needs 
to know that there is a date coming on which they are going to 
be read in on that.
    We have GAO and IG on the list right now. I think what we 
can do--and I am happy to go back and execute this--is to drill 
down on another layer, not just any GAO engagement but 
specifically the GAO high-risk engagement, lift that up so we 
do what I just noted, which is make it apparent.
    Senator Lankford. That would be very helpful. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And thank you 
for your willingness to serve. I figure you will be a very good 
compromiser given that you are one of, what, eight? Eight, yes. 
You have me beat. I am one of seven. But I had four sisters. 
Are you fortunate enough to have four sisters?
    Mr. Mayock. My poor sister, I only have one.
    Senator Heitkamp. Poor thing. [Laughter.]
    Well, I do not have a lot of time because I have to run to 
another meeting, and we have had a chance to spend some time 
visiting. But I think the most important thing that you can do 
during the time that you have left is pass along that learning, 
that 8 years an administration has, to the next administration 
so that we do not pick up from where we were before, so that we 
have best practices. I think we all know that there is room for 
improvement in management of Federal agencies, and as Senator 
Lankford talked about, we have spent a lot of time talking 
about what does that management look like, what does the hiring 
look like, what are the best practices that can be passed on 
and at least aid in this transition. I certainly hope that you 
will have that opportunity to share the knowledge and share the 
experience and make sure that we are not back here as seasoned 
observers and people in oversight asking the same questions 
starting from ground zero.
    We will try and do what we can to make sure that your 
position gets confirmed, but I hope that you will see it as a 
real opportunity to pass on lessons learned.
    Mr. Mayock. Thank you, Senator Heitkamp, and thank you 
again for our meeting in the run-up to this hearing. I really 
appreciate your time then, and I really appreciate your 
presence today.
    I think you have that exactly right, and one of the things 
that we are thinking about and doing as we head into the final 
6-plus months of the administration is not only the agency's 
transition for which this office plays a key role, as we 
discussed, through the Presidential Transition Improvements 
Act, but also OMB in management and government. We need to tee 
up the experience of the last 7 and 8 years so that our 
successors have an opportunity to learn from that and learn 
quickly from that as they try to figure out where the bathroom 
is and how to turn on and off the lights, and they get hit by a 
thousand urgent tasks and emergencies. How we are able to tee 
that up and move that quickly, expeditiously, coherently to 
them is a really important task. We want that next team to be 
able to set up a President's Management Agenda in the next 3 
months, not the first 2 years.
    Senator Heitkamp. Thank you, Mr. Chairman. That is all I 
have.
    Senator Lankford. Senator Carper.
    Senator Carper. Thanks. I just want to note something. We 
talked earlier that there is roughly 7 months to go for this 
administration, and some people think that is not a very long 
time. I was reminded a long time ago when I was a naval flight 
officer, and my squadron, a Navy P-3 squadron based in 
California, we used to deploy for 6 months at a time. We would 
go to Asia during the Vietnam War and come back home for 8 
months, go back again to Asia for 6 months. Those 6 months 
seemed like a really long time. And I hope these 7 months that 
lie ahead for the administration and for you, if confirmed--and 
I think you will be--I just would encourage you and your team 
that you work with to just get as much done as you can.
    And in that spirit, what are some things that maybe this 
Congress and maybe looking ahead to the next Congress can do 
better in order to enable you to do your jobs better? What are 
some things that we might do? One of the things we focus on a 
lot here in this Committee is trying to make sure that the 
folks that the administration has nominated get a hearing, a 
prompt hearing, and we have the opportunity to put them to work 
quickly on almost every occasion. But what are some things that 
we can do that might help make you and your colleagues more 
effective?
    Mr. Mayock. Well, thank you, Senator. I deeply appreciate 
that opportunity. I think in the past 8 years, the approach to 
management and government has changed quite a bit, and while it 
has changed, it has changed for the positive. There are a 
number of old challenges that would be good to address in the 
remaining months. There are a number of new challenges that 
would be good to sustain and new opportunities that would be 
good to sustain. So I would point out just a few of them.
    One, in the office of the Federal CIO, an extremely 
important role, we have great leadership in Tony Scott, and the 
ability for him and his team through the funding that has come 
through the ITOR piece of the budget has provided the kind of 
resources I mentioned earlier for information technology 
experts on the management side of OMB to work closely with the 
budgeteers on the budget side of OMB, to work very closely with 
agency CIOs to make sure projects are on track, projects are 
spending at the right pace. So sustaining that piece of the 
budget is a very important thing. It is going OK in 
appropriations. I think it would be good and important to keep 
an eye on that. That also funds the U.S. Digital Service, which 
has done an extraordinary job.
    In the President's Cybersecurity National Action Plan, we 
have asked Congress for a $3.1 billion IT transformation fund 
to attack the really horrible problem of legacy systems in the 
Federal Government, which are both a cyber threat and a huge 
hurdle for government modernizing and providing modern services 
to our citizens and our businesses. And I think the ability for 
us to make progress on that in the time that we have had a lot 
of interest in that, and I think we have made some real 
traction on that fund, but pushing that over the finish line so 
the next team starts with the ability of that mechanism to 
really tackle those legacy systems and tackle that problem.
    I would cite a couple quick other opportunities. In the 
area of Federal procurement, we have, I think, had a lot of 
success in standing up a discipline that has been used in the 
private sector for a couple decades now called ``Category 
Management,'' which is really building on the success that we 
have had in strategic sourcing, but really bringing a whole 
discipline to sectors and management. We have been able to save 
$2 billion between 2010 and 2015 by basically eliminating 
duplication in Federal acquisition.
    I think one of the things that the Congress can do is 
validate that approach and help secure that approach so, again, 
it gets taken up by the next group. I think there is enormous 
validation in the private sector for this. Now there is strong 
validation as we are standing it up in the final 2 years of 
this administration, and anything that you can do to support 
that effort, I would be happy to come brief you.
    Senator Carper. All right. Thank you.
    Mr. Mayock. Those are some of the big stuff that I would 
cite for you.
    Senator Carper. All right. Thank you.
    I have been pleased with how both the George W. Bush 
Administration and the Obama Administration have taken a more 
active role in Federal real property management, which I am 
sure you are aware of. And we have been active on it 
legislatively. In fact, we are trying to do more this year. 
What are a couple ways that we can ensure that the very good 
work in property reform continues on in the next 
administration?
    Mr. Mayock. Thank you, Senator. Thank you for your 
partnership on that issue as well.
    I think the team has put a solid program in place to freeze 
the footprint and reduce the footprint, and we have had an 
opportunity to reduce the footprint by 25 million square feet 
up through 2016, which leads to a $300 million annual cost 
savings number. So another place, as in acquisition, where I 
think we have had some significant success. There is a ways to 
go. We have an opportunity if we go execute against that plan 
between 2016 and 2020 to reduce the Federal real property 
footprint by another 60 million square feet. So I think for the 
agencies, it is a matter of working together to keep that 
pressure on, to keep that focus going.
    I think when we first came out with the program, at the 
time we came out with the program, there was a lot of energy 
and enthusiasm around it. I think now what we need to do is 
really press to make sure the plans that are in place are 
implemented, and implemented well. So I appreciate your 
partnership on that and look forward to working with you on it. 
It is another example of, if confirmed, the way that this 
leadership role as the Deputy Director for Management pushes on 
a lot of folks in a lot of areas to keep the momentum going. 
And I think it speaks to the importance of having this role 
filled. And as the President has said, he plans to run through 
the tape, to leave everything on the field. I would commit to 
you as well, if confirmed, I am ready to run through the tape 
with the President and leave everything on the field, and 
whether it is real property or any of the other priorities we 
have discussed.
    Senator Carper. All right. Good. One last quick one, if I 
could. After we established the Department of Homeland Security 
and it was new and we were trying to glom together 22 big 
agencies and a quarter of a million employees that were spread 
all over the place in the greater Washington metropolitan 
area--and spread around the world actually--one of the things 
that became clear is that they needed excellent management, 
they needed great leadership, and they needed a good management 
team. And we worked with this administration and the last 
administration to try to make sure we had that. They needed a 
reasonable amount of funding. They have asked for a number of 
changes in law with respect to authorization of various 
components of the big agency.
    One of the issues that came to my attention several years 
ago was the interest in trying to get rid of all these leases 
that we have throughout the greater metropolitan area, down 
into Virginia, and in Maryland and D.C. and so forth, where we 
spend a lot of money leasing office space for some of these 
quarter of a million employees. They are spread all across 
hell's half acre. It is hard to coordinate everybody. There is 
not much of a sense of team. And so I was an earlier doubter 
that St. Elizabeths made sense to try to consolidate everything 
in one campus. I am not a doubter anymore. I think there is 
real savings that could be realized, and I think so does the 
administration.
    Would you just comment on that briefly before we wrap up 
here?
    Mr. Mayock. Thank you, Senator, and thank you again for 
your support on that issue. I had in my time on the budget side 
of OMB an opportunity to be the steward of General Government 
Programs, as we discussed, which included DHS, and DHS 
headquarters was a part of that.
    The work that the team did to develop the enhanced plan, as 
we called it last year that shaved $1 billion off the cost that 
provided for the employees of DHS to move in many years earlier 
than planned I think was an extraordinary plan. I think it was 
validated by the budget in 2016. I think we need to stay on top 
of it like we stayed on top of it in 2016 to deliver this year 
on this budget and keep that momentum alive so that the next 
Secretary of DHS, when he walks into his or her office.
    Senator Carper. Sometimes we let women do these jobs, like 
Janet Napolitano.
    Mr. Mayock. Absolutely, and I think Secretary Napolitano 
was extraordinary in her role there. But for her who walks into 
that office, they walk into that office in St. Elizabeths 
rather than in Northwest Washington, D.C.
    Senator Carper. All right. Thanks so much.
    Mr. Mayock. Thank you.
    Senator Carper. Thank you.
    Senator Lankford. Thank you.
    Let me ask one quick wrap-up question and see if there is 
anything we need to add. On the issue about OMB setting and 
managing the policies of other agencies--that is an interesting 
relationship. You and I had a brief conversation in my office 
about it as well, the management part of OMB and working with 
agencies. Are there particular areas of policy you believe 
should be left to OMB when we start talking about setting 
policies for agencies?
    Mr. Mayock. Thank you, Senator. I think as far as policy 
setting, I am happy to continue the conversation beyond this 
hearing room, of course, and if confirmed, happy to dig deeper 
on that and work further on that.
    As for the way things work today, I think that in my 
experience at OMB, both on the budget side and my role as a 
senior adviser on the management side, we have a pretty 
functional and working system where an agency as it seeks to 
guide its own equities through its process has an opportunity 
to do that, and where OMB has cross-cutting equities and is 
working through its management role for the good of the broader 
government, that we then produce and work on things like 
Executive Orders (EO) and Presidential memos and OMB management 
memos.
    So that tends to be the balance, I think as we work through 
that, and I think we tend to have a good relationship with 
agencies as we discuss whether something should be OMB guidance 
or something should be agency guidance. But I look forward to 
your views and am happy to work with you on that.
    Senator Lankford. That is great.
    Other questions, Senator Carper?
    Senator Carper. I am done. Thanks.
    Senator Lankford. Other comments you need to make?
    Senator Carper. Let me just say, I left it all on the 
field.
    Senator Lankford. If you want to make public comments about 
your brothers, this is the opportunity. [Laughter.]
    Because they will not be given the microphone after you.
    Mr. Mayock. I thought I might be given the opportunity to 
call a friend or a brother, so I just thank them again for 
their presence. They have flown in from St. Paul, Milwaukee, 
and New York, and at a moment's notice, so it is wonderful to 
have their support, in addition to my other siblings, including 
my one sister, who I am sure are paying attention from home. So 
I deeply support the presence of all the family here.
    Senator Lankford. Thank you.
    Mr. Mayock. And I really appreciate the opportunity today 
and the work that we have been able to do in the lead-up to 
this hearing. And if confirmed, as noted, I look forward to 
working closely in the months ahead. A lot of work to do in the 
next 6-plus months, and I am dedicated to this job and this 
role and working together.
    Senator Lankford. Thank you. For you and for Cindy and for 
your family, thanks for being here, and for your dedication 
already in serving the Nation.
    Let me make this brief closing statement, and we will 
close. Mr. Mayock has filed responses to biographical and 
financial questionnaires, answered prehearing questions 
submitted by the Committee, and has had financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data, which is on file and 
available for public inspection in the Committee offices.
    Senator Lankford. The hearing record will remain open until 
12 p.m. tomorrow, June 29, 2016, for the submission of 
statements and questions for the record.
    Thank you again for being here. This hearing is adjourned.
    [Whereupon, at 5:15 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
